                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: A11070048                                                                    Page 1 of 1



                  We assessed an allegation that a principal investigator' (PI) conducted human subjects
         research activities that were outside the scope of an NSF award. 2 These research activities were
         conducted without NSF's prior approval and thus there were concerns about human subjects
         institutional review violations and the potential misuse of NSF funds. The PI further changed the
         scope of the project by terminating a collaborative subaward, 3 again without the requisite NSF
         preapproval. The original project outlined in the NSF award was discontinued by the PI who
         wanted to employ new methodologies.

                 NSF suspended the award and withheld release of the continuing grant increment of
         $176,913 pending further evaluation. NSF determined that the human subjects research
         activities did receive appropriate Institutional Review Board (IRB) review and approval but the
         PI failed to provide NSF with the documentation. NSF required the PI to submit an erratum for a
         recent publication, 4 removing the acknowledgement of NSF funding for studies related to the
         out-of-scope activities. The PI's university imposed several remedial training sessions on the PI
         and faculty, covering IRB and responsible grant management topics. NSF lifted the suspension
         of the award for the PI to complete analysis of the data already collected, and then ended the
         award. NSF recovered a total of $171,156.56, consisting of $50,309 to be returned for the costs
         related to the out-of-scope research activities, and the remainder as unexpended award funds to
         be de-obligated and returned. Accordingly, this case is closed with no further action taken.




NSF OIG Fonn 2 (11102)
